                                    CLOSEOUT FOR M98090023

        On September 18, 1997, the Office of Inspector General (OIG) received an
allegation of misconduct in science involving plagiarism. According to this allegation,
the subject1 submitted an NSF pre-proposal and published a book chapter which
exploited the ideas of another scientist2without permission or attribution.

        After several discussions with the scientist, OIG learned that she attended a
conference in early September 1997. At this conference, she listened to a speech
delivered by the subject and received a preliminary draft of a book chapter sole-authored
by the subject. At the end of the conference, the scientist approached the subject to
discuss her ideas about a different approach to the problem discussed in the subject's
speech. Although the scientist did not imply the subject could share her ideas with the
scientific community, she did not indicate that her ideas were confidential.        In late
February 1998, the scientist learned that a pre-proposal containing her ideas was
submitted by the subject to the National Science ~oundation.~      At another conference in
late July 1998, the scientist received a copy of a recently published book which contained
a chapter written by the subject.: According to the scientist, this book chapter was
essentially the same manuscript she received in September 1997, but contained
significant revisions based on her ideas. Although the subject acknowledged several
editors and colleagues at the end of the chapter, the subject did not acknowledge
intellectual contributions fiom the scientist. After learning of her concerns, the subject
sent an apologetic email message to the scientist, acknowledging her intellectual
contributions which permitted the subject to consider the problem from a different
perspective. The subject concluded the email message by stating that any failure to
acknowledge the scientist's ideas was not intentional.

        OIG obtained copies of a set of slides which documented the scientist's original
ideas and compared these slides to the subject's original draft, final book chapter and
NSF pre-proposal. Our comparison revealed possible similarities between the research
project described in the subject's pre-proposal and book chapter, and those described by
the scientist. Accordingly, OIG requested a formal assessment of the misconduct in
science allegation by an expert5

        After considering the information supplied by OIG, the expert concluded that
"these research projects are different and their solutions, while sharing a common core,
are different. The common core is present in most other work in this area." In particular,
although the scientist claimed the subject incorporated her ideas into the final draft of the
book chapter, the expert concluded the subject's approach as presented in the final draft
was an obvious elaboration of the approach presented in the original draft, which existed
before the scientist communicated her ideas to the subject.
' The subject is [redacted].
' The scientist is [redacted]. At the time she shared her ideas with the subject, [redacted].
3
   This pre-proposal is entitled [redacted] with the subject listed as Program Director. The Principal
Investigators on this proposed project are[redacted].
   The book chapter is entitled [redacted].
  [footnote redacted].


                                                 Page 1 of 2
                              CLOSEOUT FOR M98090023

        OIG concluded that any allegations of plagiarism by the subject were not
supported by the evidence. Although the subject could have acknowledged the scientist's
intellectual contributions as a matter of professional courtesy, the final draft of the book
chapter and NSF pre-proposal contained a different approach and a completely different
scope compared to the scientist's project. Accordingly, OIG does not believe the subject
committed misconduct in science.

       OIG closed this inquiry and will take no further action.


cc: Scientific Attorney, Integrity, IG




                                         Page 2 of 2
